No. 19A_____
___________
IN THE
SUPREME COURT OF THE UNITED STATES
___________
JAKE LATURNER, TREASURER OF THE STATE OF KANSAS,
Applicant,
v.
UNITED STATES OF AMERICA AND ANDREA LEA, IN HER OFFICIAL CAPACITY
AS AUDITOR OF THE STATE OF ARKANSAS,
Respondents.
___________
APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
___________
TOBY CROUSE
Solicitor General
OFFICE OF ATTORNEY GENERAL
120 S.W. 10th Avenue
2nd Floor
Topeka, Kansas 66612-1597
(785) 368-6693

DAVID C. FREDERICK
Counsel of Record
KELLOGG, HANSEN, TODD, FIGEL
& FREDERICK, P.L.L.C.
1615 M Street, N.W.
Suite 400
Washington, D.C. 20036
(202) 326-7900
(dfrederick@kellogghansen.com)

Counsel for Applicant Jake LaTurner, Treasurer of the State of Kansas

February 24, 2020

PARTIES TO THE PROCEEDINGS BELOW
Applicant Jake LaTurner, Treasurer of the State of Kansas, was a plaintiff in
the district court proceedings and an appellee in the court of appeals proceedings.
Respondent United States of America was the defendant in the district court
and the appellant in the court of appeals proceedings.
Respondent Andrea Lea, in her official capacity as Auditor of the State of
Arkansas, was a plaintiff in the district court proceedings and an appellee in the
court of appeals proceedings.

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
___________
To the Honorable John G. Roberts, Jr., Chief Justice of the United States and
Circuit Justice for the Federal Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Rules 13.5, 22, and 30.3 of the Rules of
this Court, applicant Jake LaTurner, Treasurer of the State of Kansas, respectfully
requests a 59-day extension of time, up to and including May 8, 2020, within which to
file a petition for a writ of certiorari to review the judgment of the Federal Circuit.
The Federal Circuit entered its judgment on August 13, 2019, and denied
petitions for rehearing on December 11, 2019. The court’s opinion (which is reported
at 933 F.3d 1354) and its order denying rehearing are attached hereto as Exhibits A
and B, respectively. The petition would be due on March 10, 2020, and this application
is made at least 10 days before that date. This Court’s jurisdiction would be
invoked under 28 U.S.C. § 1254(1).
1.

This case involves important issues regarding the Supremacy Clause of

the federal Constitution, which this Court has interpreted to provide that federal
law does not preempt state law in areas that the States have traditionally occupied,
unless that is the “clear and manifest” purpose of Congress. Altria Grp., Inc. v.
Good, 555 U.S. 70, 77 (2008). In particular, the case presents the question whether
States’ historical authority to escheat abandoned property is preempted based not
on the clear and manifest direction of Congress, but instead through post-hoc
litigation arguments of the United States Treasury Department (“Treasury”).

The Federal Circuit, failing even to acknowledge the clear-and-manifest-purpose
standard and ignoring the force of contrary precedent from the Third Circuit,
concluded here that state-court escheat orders were preempted by statutes and
regulations that say nothing of preemption or escheat. LaTurner v. United States,
933 F.3d 1354, 1361 (Fed. Cir. 2019). It did all this despite decades of recognition
by Treasury and the Solicitor General, among others, that such orders could
transfer title ownership – but not mere custody – of a U.S. savings bond from its
original owner to a State consistent with federal law.
2.

That ruling upended core principles of federalism that lie at the heart

of our governmental system and that are settled law in this Court and the courts of
appeals. In Altria and its progeny, this Court repeatedly has directed that States’
traditional authority – which includes its authority to escheat unclaimed property –
must be left undisturbed absent Congress’s clear and manifest purpose to prohibit
the operation of state law. See 555 U.S. at 77. The Federal Circuit’s preemption
analysis functionally flipped that burden by ruling that state escheat laws are
preempted “[a]bsent Federal law” affirmatively “authorizing” state escheat.
LaTurner, 933 F.3d at 1361. The Federal Circuit’s inversion of the governing
standard implicates serious federalism concerns and presents a fundamental
conflict that warrants this Court’s review.
3.

Moreover, the Federal Circuit’s decision conflicts with on-point

reasoning from the Third and D.C. Circuits. In Treasurer of New Jersey v. U.S.
Department of Treasury, 684 F.3d 382 (3d Cir. 2012), the Third Circuit held that

2

federal law preempted state laws asserting custody – but not title – over the
proceeds of matured savings bonds. In so doing, the court recognized that its result
did “not nullify state escheat laws” because “the federal regulations . . . as
recognized by the Treasury” permit States to “obtain ownership of the bonds”
through state-law proceedings. Id. at 412-13 (emphasis added). The court’s result
turned, the panel said, on the fact that the States “merely s[ought] custody of, not
title to, the funds.” Id. at 413. The Federal Circuit ignored that distinction.
The D.C. Circuit recognized the same distinction between custody and title in
Arizona v. Bowsher, 935 F.2d 332 (D.C. Cir. 1991). There, several States claimed a
custodial right to funds that Treasury, by federal statute, was holding in trust for
citizens owed money by federal agencies. The court held that the States’ custodybased laws were preempted, but it recognized that title-escheat laws, “which these
[we]re not,” “might well substitute the state for the claimant and entitle [the State]
to payment.” Id. at 335.
4.

The 59-day extension to file a certiorari petition is necessary because

undersigned counsel needs the additional time to complete consultations with the
affected state governments and to prepare the petition and appendix in light of
previously engaged matters, including: (1) oral argument before the Ninth Circuit in
Sherr-Una Booker v. C.R. Bard, Inc., No. 18-16349 (argued Feb. 3, 2020); (2) oral
argument before the Ninth Circuit in County of San Mateo v Chevron Corp. / City
of Oakland v. BP P.L.C., Nos. 18-15499 & 18-16663 (argued Feb. 5, 2020); (3) oral
argument before the Special Master in Nashville, Tennessee, in Mississippi v.

3

Tennessee, et

al., No. 143, Orig. (scheduled for Feb. 25, 2020); and (4) a case

management conference in New Port Richey, Florida, tn Florida, et al. u. Purdue

Pharma L.P., et ol., No. 51-2018-CA-001438 (WS) (scheduled for Mar. 30,2020).
For all these reasons, there is good cause for a 59-day extension of time, up to
and including May 8,2020, within which to file a certiorari petition in this case to

review the judgment of the Federal Circuit.
Respectfully submitted,

t ^.-

D AVID C. FnnopntcN
Counsel of Record

Toev Cnousp
Solicitor Gen eral
On.T.TCn OF

Kpt l-occ, HANSEN, Toot, Frcgl
& FnpnpnICK, P.L.L.C.
1615 M Street, N.W.
Suite 400
Washington, D.C. 20036
(202) 326-7900

ATTORNEY GENERAL

120 S.W. 10th Avenue
2nd Floor
Topeka, Kansas 666L2-I597
(785) 368-6693

(dfre derick@kello gghansen.com)

Counsel for Appticant Jahe LaTurner, Treasurer of the State of Kansas

February 24,2020

4

EXHIBIT A

1354

933 FEDERAL REPORTER, 3d SERIES

being. Iridescent is mistaken, however,
that the district court misread ‘‘quality of
service’’ to be a third connection type, or
that such a misreading is a necessary
predicate to determining that the term
‘‘high quality of service connection’’ is a
term of degree. That ‘‘quality of service’’ is
a characteristic of any network connection
says nothing about the level of quality of
service that connection provides. The district court was thus correct to look to the
specification and the prosecution history
for disclosure of what constitutes high
quality of service. Because Figure 3 and
the applicant’s prosecution history statements disclose the disputed term’s scope,
the district court’s analysis was correct.
Iridescent also argues that this court’s
precedent forecloses limiting the term
‘‘high’’ to numerical values. We disagree.
In each case on which Iridescent relies,
this court concluded that importing numerical limits into the independent claim at
issue would have rendered a dependent
claim meaningless. See Honeywell Int’l
Inc. v. Universal Avionics Sys. Corp., 488
F.3d 982, 993–94 (Fed. Cir. 2007); In re
Cruciferous Sprout Litig., 301 F.3d 1343,
1348–49 (Fed. Cir. 2002); Am. Seating Co.
v. USSC Grp., Inc., 91 F. App’x 669, 676
(Fed. Cir. 2004). That is not a concern
here. Additionally, in American Seating,
the claim language itself defined the disputed term. 91 F. App’x at 675. By contrast, the claims here provide no clear
meaning or definition of ‘‘high quality of
service connection.’’
CONCLUSION
We have considered Iridescent’s remaining arguments and find them unpersuasive. We hold that the correct construction
of ‘‘high quality of service connection’’
means ‘‘a connection that assures connection speed of at least approximately one
megabit per second and, where applicable
based on the type of application, packet
loss requirements that are about 10-5 and

latency requirements that are less than
one second.’’ We therefore affirm the district court’s judgment.
AFFIRMED
COSTS
No costs.

,
Jake LATURNER, Treasurer of the
State of Kansas, Andrea Lea, in Her
Official Capacity as Auditor of the
State of Arkansas, Plaintiffs-Appellees
v.
UNITED STATES, Defendant-Appellant
2018-1509
2018-1510
United States Court of Appeals,
Federal Circuit.
Decided: August 13, 2019
Background: Treasurer of State of Kansas and Auditor of State of Arkansas
brought separate actions under the Tucker
Act against United States, alleging that
States were owners of unredeemed savings
bonds that were deemed abandoned under
their title escheat laws and that United
States breached terms of savings bonds by
refusing to redeem the bonds. The Court
of Federal Claims, Elaine D. Kaplan, J.,
132 Fed.Cl. 705, 133 Fed.Cl. 47, granted
summary judgment in favor of the States,
135 Fed.Cl. 501, 2017 WL 5929229, certified orders for interlocutory appeal, and
stayed the proceedings pending appeal.
United States’ petitions for leave to appeal

LATURNER v. U.S.
Cite as 933 F.3d 1354 (Fed. Cir. 2019)

1355

were granted, and the appeals were consolidated.

5. Escheat O2

Holdings: The Court of Appeals, Dyk,
Circuit Judge, held that:

Department of Treasury regulation
did not permit the transfer of ownership of
United States savings bonds under escheat
laws, and thus, States’ title escheat laws,
which considered savings bonds abandoned
if bond owners did not redeem their bonds
within five years after maturity, were
preempted by federal law under which savings bonds never expired and could be
redeemed at any time after maturity; regulation provided that Treasury would recognize claim of bond ownership by third
party if established by judicial proceedings
mentioned in the regulation, and escheat
proceedings were not specifically mentioned in the regulation. 31 U.S.C.A.
§ 3105(b)(2)(A); Ark. Code Ann. §§ 18-28231(a), 18-28-231(b); Kan. Stat. Ann. §§ 583935(a)(16),
58-3979(a);
31
C.F.R.
§§ 315.15, 315.20(b), 315.35(c).

(1) States’ title escheat laws, which considered savings bonds abandoned if bond
owners did not redeem their bonds
within five years after maturity, were
preempted by federal law;
(2) even if States owned savings bonds,
Department of Treasury properly denied States’ request for redemption of
the bonds;
(3) United States could not be compelled
through discovery to ascertain serial
numbers for savings bonds; and
(4) no property interest of the States was
impaired by Department of Treasury’s
denial of States’ requests to redeem
savings bonds, and thus, no taking of
States’ property occurred.
Reversed and remanded with instructions.
1. United States O332(1)
A savings bond is a contract between
the United States and the bond owner, and
Department of Treasury regulations are
incorporated into the bond contract. 31
U.S.C.A. § 3105(b)(2)(A); 31 C.F.R.
§ 315.35(c).
2. United States O332(3)
Department of Treasury regulations
do not impose any time limits for bond
owners to redeem United States savings
bonds. 31 U.S.C.A. § 3105(b)(2)(A).
3. States O18.5
When federal and state law conflict,
federal law prevails and state law is
preempted. U.S. Const. art. 6, cl. 2.
4. States O18.9
Authorized federal regulations can
preempt just as federal statutes can. U.S.
Const. art. 6, cl. 2.

States O18.69

6. Administrative Law and Procedure
O2405
A court should not afford Auer deference, under which an agency’s interpretation of its own regulations is controlling
unless plainly erroneous or inconsistent
with the regulation, unless the regulation
is genuinely ambiguous, even after applying all the traditional tools of construction.
7. Administrative Law and Procedure
O2405
Even if a regulation is genuinely ambiguous, Auer deference, under which an
agency’s interpretation of its own regulations is controlling unless plainly erroneous or inconsistent with the regulation, is
not appropriate unless an independent inquiry into the character and context of the
agency interpretation shows that the interpretation (1) constitutes the agency’s authoritative or official position, (2) implicates the agency’s substantive expertise,

1356

933 FEDERAL REPORTER, 3d SERIES

and (3) reflects the agency’s fair and considered judgment of the issue.
8. United States O332(3)
Even if States owned United States
savings bonds that were deemed abandoned under their title escheat laws, Department of Treasury properly denied
States’ request for redemption of the
bonds, where States did not present physical bonds for redemption, all bonds at issue were six years or more past maturity,
and all bonds were received by original
owner. Ark. Code Ann. §§ 18-28-231(a),
18-28-231(b); Kan. Stat. Ann. §§ 583935(a)(16),
58-3979(a);
31
C.F.R.
§§ 315.25, 315.26(b), 315.27, 315.29(c),
315.39(a).
9. Contracts O168
The implied duty of good faith and
fair dealing cannot expand a party’s contractual duties beyond those in the express
contract or create duties inconsistent with
the contract’s provisions.
10. United States O332(2)
United States could not be compelled
through discovery to ascertain serial numbers for United States savings bonds that
were deemed abandoned under States’ title escheat laws in action alleging that
United States breached terms of bonds by
refusing to allow States to redeem them;
allowing United States to be so compelled
would circumvent the requirement that
bond owner provide serial number to redeem bond, and allowing States to use
discovery rules to bypass the serial number requirement would improperly expand
substantive right to payment under Department of Treasury regulations. 31
U.S.C.A. § 3105(b)(2)(A); Ark. Code Ann.
§§ 18-28-231(a), 18-28-231(b); Kan. Stat.
Ann. §§ 58-3935(a)(16), 58-3979(a); 31
C.F.R. §§ 315.29(c), 315.35(c).
11. Constitutional Law O948
Before suit has been filed, before any
dispute has arisen, parties may waive vari-

ous rights through contract, even those
based in the Constitution, such as due
process rights to notice and a hearing.
U.S. Const. Amend. 5.
12. Eminent Domain O2.23, 87
No property interest of the States was
impaired by Department of Treasury’s denial of States’ requests to redeem United
States savings bonds that were deemed
abandoned under States’ title escheat laws,
and thus, no taking of States’ property
occurred; bonds remained the property of
the original owners, who retained the right
to redeem the bonds at any time, and
States did not possess any interest in the
bonds. U.S. Const. Amend. 5; Ark. Code
Ann. §§ 18-28-231(a), 18-28-231(b); Kan.
Stat. Ann. §§ 58-3935(a)(16), 58-3979(a).
West Codenotes
Preempted
Ark. Code Ann. §§ 18-28-231(a), 18-28231(b); Kan. Stat. Ann. §§ 58-3935(a)(16),
58-3979(a)

Appeals from the United States Court of
Federal Claims in Nos. 1:13-cv-01011EDK, 1:16-cv-00043-EDK, Judge Elaine
Kaplan.
David Charles Frederick, Kellogg, Huber, Hansen, Todd, Evans & Figel,
PLLC, Washington, DC, argued for all
plaintiffs-appellees. Plaintiff-appellee Jake
LaTurner also represented by Scott H.
Angstreich, Katherine Cooper, Benjamin
Softness; Jonathan Brett Milbourn, Horn
Aylward & Bandy, LLC, Kansas City,
MO.
David Thompson, Cooper & Kirk,
PLLC, Washington, DC, for plaintiff-appellee Andrea Lea. Also represented by
John David Ohlendorf, Peter A. Patterson;
Joseph H. Meltzer, Melissa L. Troutner,

1357

LATURNER v. U.S.
Cite as 933 F.3d 1354 (Fed. Cir. 2019)

Kessler Topaz Meltzer & Check, LLP,
Radnor, PA.
Alisa Beth Klein, Appellate Staff, Civil
Division, United States Department of
Justice, Washington, DC, argued for defendant-appellant. Also represented by
Mark B. Stern, Joseph H. Hunt.
George W. Neville, Office of the Mississippi Attorney General, Jackson, MS, for
amici curiae State of Florida, State of Mississippi, State of Georgia, State of Indiana,
State of Iowa, Commonwealth of Kentucky, State of Louisiana, Commonwealth
of Pennsylvania, State of Ohio, State of
South Carolina, State of Rhode Island,
State of South Dakota.
Before Dyk, Chen, and Hughes, Circuit
Judges.
Dyk, Circuit Judge:

suit in the Court of Federal Claims
(‘‘Claims Court’’). The Claims Court
agreed with the States, holding that Treasury must pay the proceeds of the relevant
bonds—once it has identified those
bonds—to the States. The cases were certified for interlocutory appeal to this court.
We reverse for two independent reasons. First, we hold that federal law
preempts the States’ escheat laws. That
means that the bonds belong to the original bond owners, not the States, and thus
the States cannot redeem the bonds. Second, even if the States owned the bonds,
they could not obtain any greater rights
than the original bond owners, and, under
Federal law, 31 C.F.R. § 315.29(c), a bond
owner must provide the serial number to
redeem bonds six years or more past maturity, which includes all bonds at issue
here. Because the States do not have the
physical bonds or the bond serial numbers,
Treasury properly denied their request for
redemption.

During the Great Depression, President
Franklin D. Roosevelt signed legislation
allowing the U.S. Department of Treasury
(‘‘Treasury’’) to issue savings bonds, a type
of debt security designed to be affordable
and attractive to even the inexperienced
investor. Under longstanding federal law,
savings bonds never expire and may be
redeemed at any time after maturity. See,
e.g., 31 U.S.C. § 3105(b)(2)(A); 31 C.F.R.
§ 315.35(c). Federal law also limits the
ability to transfer bonds. 31 C.F.R.
§ 315.15. Kansas and Arkansas (the
‘‘States’’) passed so-called ‘‘escheat’’ laws
providing that if bond owners do not redeem their savings bonds within five years
after maturity, the bonds will be considered abandoned and title will transfer (i.e.,
‘‘escheat’’) to the state two or three years
thereafter. Kan. Stat. Ann. §§ 583935(a)(16), 58-3979(a) (2000); Ark. Code
Ann. § 18-28-231(a)–(b) (2015).

[1] This case concerns the ability of
states to acquire U.S. savings bonds
through escheat, the centuries-old right of
the states to ‘‘take custody of or assume
title to abandoned personal property.’’ Delaware v. New York, 507 U.S. 490, 497, 113
S.Ct. 1550, 123 L.Ed.2d 211 (1993). A savings bond is a contract between the United
States and the bond owner, and Treasury
regulations are incorporated into the bond
contract. See Treasurer of New Jersey v.
U.S. Dep’t of the Treasury, 684 F.3d 382,
387 (3d Cir. 2012), cert. denied, 569 U.S.
1004, 133 S.Ct. 2735, 186 L.Ed.2d 192
(2013).

Pursuant to these escheat laws, the
States sought to redeem a large but unknown number of bonds, estimated to be
worth hundreds of millions of dollars.
When Treasury refused, the States filed

[2] Treasury ‘‘regulations do not impose any time limits for bond owners to
redeem the[se] savings bonds.’’ Id. at 388;
see also 31 U.S.C. § 3105(b)(2)(A) (authorizing Treasury to adopt regulations pro-

BACKGROUND

1358

933 FEDERAL REPORTER, 3d SERIES

viding that ‘‘owners of savings bonds may
keep the bonds after maturity’’). In addition, Treasury regulations provide that
savings bonds are generally ‘‘not transferable and are payable only to the owners
named on the bonds.’’ 31 C.F.R. § 315.15.
When the sole owner of a bond dies, ‘‘the
bond becomes the property of that decedent’s estate.’’ 31 C.F.R. § 315.70(a). Federal law imposes no time limit on the
redemption of savings bonds, and numerous savings bonds in the country have
matured but have not yet been redeemed
by their owners. Generally, in order to
redeem bonds not in the physical possession of the owner—for example, bonds that
have been lost or destroyed—the owner
must supply the serial numbers of the
bonds to Treasury. 31 C.F.R. §§ 315.25,
315.26(a), 315.29(c). The States do not have
the serial numbers of the bonds in question.
This case is related to an earlier litigation that resulted in a decision by the
Third Circuit. In the 2000s, several states
attempted to acquire the proceeds of unredeemed savings bonds through so-called
‘‘custody escheat’’ laws. See New Jersey,
684 F.3d at 389–90. These laws provided
that if bond owners with last known addresses in the state did not redeem their
bonds within a certain time after maturity
(such as five years), the bonds would be
deemed abandoned property. The state
could then obtain legal custody of (but not
title to) the bonds. When several states
asked Treasury to redeem bonds obtained
through these custody escheat laws, Treasury refused. Treasury explained that for
the bonds to be paid, a state ‘‘must have
possession of the bonds’’ and ‘‘obtain title
to the individual bonds’’—neither of which
the states had. J.A. 507 (2004 letter to
North Carolina); accord J.A. 509 (letter to
Illinois); J.A. 511 (letter to D.C.); J.A. 513
(letter to Kentucky); J.A. 515 (letter to
New Hampshire); J.A. 517 (letter to South

Dakota); J.A. 519 (letter to Connecticut);
J.A. 521 (letter to Florida).
A number of states filed suit in the
District of New Jersey, seeking an order
directing the government to pay the bond
proceeds. The district court upheld Treasury’s denial of payment, holding that the
states’ custody escheat laws were preempted. See New Jersey, 684 F.3d at 394. The
Third Circuit affirmed, explaining that the
states’ laws ‘‘conflict[ed] with federal law
regarding United States savings bonds in
multiple ways.’’ Id. at 407. The court reasoned that unredeemed bonds are ‘‘not
‘abandoned’ or ‘unclaimed’ under federal
law because the owners of the bonds may
redeem them at any time after they mature.’’ Id. at 409. ‘‘The plaintiff States’
unclaimed property acts, by contrast, specify that matured bonds are abandoned and
their proceeds are subject to the acts if not
redeemed within a [certain] time period’’
after maturity. Id. at 407–08. ‘‘There simply is no escape from the fact that the
Federal Government does not regard matured but unredeemed bonds as abandoned
even in situations in which [state law]
would do exactly that.’’ Id. at 409. However, the Third Circuit declined to address
whether the outcome would be different if
states obtained title to savings bonds, as
opposed to mere custody. Id. at 413 n.28
(‘‘We simply are not faced with that possibility and thus we do not address it.’’).
After the New Jersey litigation, Kansas
and Arkansas acted to obtain title to the
bonds using ‘‘title escheat’’ laws—precisely
the circumstance the Third Circuit’s New
Jersey decision did not reach. Kansas’s
title escheat law provides that a savings
bond will be considered ‘‘abandoned’’ if it
is not redeemed within five years of maturity. Kan. Stat. Ann. § 58-3935(a)(16). If
the bond remains unredeemed for three
more years—that is, for a total of eight
years after maturity—Kansas may obtain

LATURNER v. U.S.
Cite as 933 F.3d 1354 (Fed. Cir. 2019)

a state court judgment that title to the
bond has escheated to the state. Id. § 583979(a). Arkansas’s law is similar, providing that savings bonds will be considered
abandoned five years after maturity and
that the state can obtain title to the bonds
two years after that. Ark. Code Ann. § 1828-231(a)–(b).
Kansas and Arkansas obtained state
court judgments purporting to give them
title to the category of bonds deemed
abandoned under these title escheat
laws—that is, all unredeemed bonds that
were sufficiently past maturity and were
registered to owners with last known addresses in Kansas or Arkansas.1 See J.A.
251 (Kansas); J.A. 1244 (Arkansas). These
bonds were not in the States’ possession.2
Kansas and Arkansas estimated that the
allegedly abandoned bonds were worth
$151.8 million and $160 million, respectively.
The States then attempted to redeem
these bonds, asking Treasury to redeem
bonds whose registered owners had last
known addresses in the state, relying on
its general authority to escheat debts owed
to individuals whose last known addresses
were in the state. See generally Texas v.
New Jersey, 379 U.S. 674, 680–81, 85 S.Ct.
626, 13 L.Ed.2d 596 (1965) (holding that as
to abandoned intangible property—there,
1.

2.

For Kansas, the relevant bonds are 40-year
Series E bonds issued between 1941 and December 31, 1961; 30-year Series E bonds issued between 1965 and December 31, 1972;
and Series A–D, F, G, H, J, and K bonds
issued before December 31, 1972. J.A. 245.
For Arkansas, the relevant bonds are ‘‘all
unredeemed series A through D, F, G, J, and
K bonds, and all series E and H bonds that
were issued on or before October 16, 1978.’’
J.A. 1243.
The States also escheated and asked Treasury to redeem a much smaller number of
bonds that they did possess. Treasury did so,
relying on its authority under 31 C.F.R.
§ 315.90 to waive its other regulations. See

1359

various debts—‘‘the right and power to
escheat the debt should be accorded to the
State of the creditor’s last known address’’).3 Treasury declined, stating that
‘‘[u]nless some exception or waiver in [its]
regulations applies, Treasury is only authorized to redeem a savings bond to the
registered owner,’’ J.A. 368, who retains
the right ‘‘to redeem their savings bonds
at any time, even after maturity,’’ J.A. 369.
The States sued for damages under the
Tucker Act, 28 U.S.C. § 1491, alleging that
the States were the owners of the absent
bonds and that the government had
breached the terms of the savings-bonds
contracts by refusing to redeem the bonds.
On cross-motions for summary judgment,
the Claims Court sided with the States,
holding that Treasury was liable to the
States and had an obligation to identify the
absent bonds. The Claims Court reasoned
that there was no preemption because
‘‘federal law itself (i.e., 31 C.F.R.
§ 315.20(b)) requires Treasury to recognize
claims of ownership based on title-based
escheatment statutes.’’ Laturner v. United
States, 133 Fed. Cl. 47, 71 (2017).
The court also concluded that the States
have the ‘‘right[ ] as an owner of the bonds
to make a claim for their proceeds based
on the theory that they are ‘lost.’ ’’ Id. at
70. It determined that ‘‘Treasury breached
Regulations Governing United States Savings
Bonds, 80 Fed. Reg. 37,559, 37,3560 (U.S.
Dep’t of Treasury July 1, 2015). The bonds in
the States’ possession are not at issue in this
case.
3.

Below, the government challenged the
States’ authority to escheat based on the last
known address of the registered bond owners,
since some bond owners may have moved out
of state. The government does not make this
argument on appeal, and we assume without
deciding that the States have the authority—
absent preemption—to escheat savings bonds
based on the last-known address of the registered owner.

1360

933 FEDERAL REPORTER, 3d SERIES

the [bond] contract when it refused to
provide [the States] with information about
the bonds and demanded that [the States]
produce the bond certificates as a condition of redeeming their proceeds.’’ Id. at
65. Thus, the Claims Court held that the
States were ‘‘entitled to receive from the
government the information necessary to
allow it to make a request to redeem the
bonds,’’ including the serial numbers of the
absent bonds. Id. at 77; see also id. at 70;
Laturner v. United States, 135 Fed. Cl.
501, 505 (2017).
The Claims Court certified its summary
judgment orders for interlocutory appeal
under 28 U.S.C. § 1292(d)(2),4 noting that
identifying the absent bonds would be
time-intensive and expensive and that
there are eight other pending cases in
which other states are asserting similar
claims. The court also stayed the proceedings pending appeal.
We granted the government’s petitions
for leave to appeal and consolidated the
appeals. We have jurisdiction under 28
U.S.C. § 1292(d)(2).
DISCUSSION
I
We first address whether, as the government contends, the Treasury regulations
governing U.S. savings bonds preempt the
States’ escheat laws regarding unredeemed savings bonds. The parties assume
that the regulations in effect before De4.

The language of section 1292(d)(2) ‘‘is virtually identical to 28 U.S.C. § 1292(b) TTT which
governs interlocutory review by other courts
of appeals.’’ United States v. Connolly, 716
F.2d 882, 883 n.1 (Fed. Cir. 1983) (en banc).

5.

The government’s position is that the relevant regulations are those ‘‘that were in effect
at the time the requests were made’’—that is,
in May 2013 (for Kansas) and in November
2015 (for Arkansas), respectively. Gov’t Open.
Br. at 7 n.3. (There was no change in the

cember 24, 2015, are the relevant regulations.5 We proceed on that assumption.
A
[3, 4] The Constitution limits state sovereignty ‘‘by granting certain legislative
powers to Congress while providing in the
Supremacy Clause that federal law is the
‘supreme Law of the Land TTT any Thing
in the Constitution or Laws of any State to
the Contrary notwithstanding.’ ’’ Murphy
v. NCAA, ––– U.S. ––––, 138 S. Ct. 1461,
1476, 200 L.Ed.2d 854 (2018) (quoting U.S.
Const. art. VI, cl. 2) (internal citation omitted). ‘‘This means that when federal and
state law conflict, federal law prevails and
state law is preempted.’’ Id. The Supreme
Court has ‘‘identified three different types
of preemption—‘conflict,’ ‘express,’ and
‘field,’ but all of them work in the same
way: Congress enacts a law that imposes
restrictions or confers rights on private
actors; a state law confers rights or imposes restrictions that conflict with the federal
law; and therefore the federal law takes
precedence and the state law is preempted.’’ Id. at 1480 (internal citation omitted).
For example, in Arizona v. United States,
567 U.S. 387, 132 S.Ct. 2492, 183 L.Ed.2d
351 (2012), the Court held that federal
statutes ‘‘provide a full set of standards
governing alien registration’’ and therefore
‘‘foreclose any state regulation in the
area.’’ Id. at 401, 132 S.Ct. 2492. In Murphy, the Court elaborated that ‘‘[w]hat this
means is that the federal registration proregulations between these dates.) The Claims
Court indicated that it was applying the regulations in effect when the States filed their
complaints—that is, in December 2013 (for
Kansas) and in November 2015 (for Arkansas), respectively. The States’ position is
somewhat unclear, though they agree that the
pre-amendment regulations apply to this case.
Given the parties’ agreement as to the relevant regulations, we assume that the regulations in effect at the time the bonds were
issued were not materially different.

LATURNER v. U.S.
Cite as 933 F.3d 1354 (Fed. Cir. 2019)

visions not only impose federal registration
obligations on aliens but also confer a federal right to be free from any other registration requirements.’’ 138 S. Ct. at 1481.
Authorized Federal regulations can
preempt just as federal statutes can. See
Hillsborough Cty. v. Automated Med.
Labs., Inc., 471 U.S. 707, 713, 105 S.Ct.
2371, 85 L.Ed.2d 714 (1985).
The Supreme Court’s decision in Free v.
Bland, 369 U.S. 663, 82 S.Ct. 1089, 8
L.Ed.2d 180 (1962) illustrates how preemption applies in the context of the U.S.
savings bond program. In that case, Treasury regulations provided that when one
bond owner died, the surviving co-owner
(there, the decedent’s husband) became
the sole owner of the bond. Id. at 664–65,
82 S.Ct. 1089. Under Texas state community property laws, however, the principal
beneficiary under the decedent’s will
(there, the decedent’s son) was entitled to
a one-half interest in the bonds—despite
not being a co-owner of the bond under
Treasury regulations. Id. The Court held
that the state law was preempted because
it prevented bond owners ‘‘from taking
advantage of the survivorship provisions’’
of the Treasury regulations. Id. at 669–70,
82 S.Ct. 1089. The Court reasoned that
‘‘Federal law of course governs the interpretation of the nature of the rights and
obligations created by the Government
bonds,’’ id. at 669–70, 82 S.Ct. 1089 (quoting Bank of Am. Tr. & Sav. Ass’n v.
Parnell, 352 U.S. 29, 34, 77 S.Ct. 119, 1
L.Ed.2d 93 (1956)), and a state may not
‘‘fail[ ] to give effect to a term or condition
under which a federal bond is issued,’’ id.
at 669, 82 S.Ct. 1089. In other words,
Treasury regulations conferred a right on
bond holders which Texas state law impermissibly restricted.
Here there is a similar conflict between
state and Federal law. Federal law confers
on bond holders the right to keep their
bonds after maturity. Congress specifically

1361

authorized Treasury to prescribe regulations providing that ‘‘owners of savings
bonds may keep the bonds after maturity,’’
31 U.S.C. § 3105(b)(2)(A), as well as regulations setting forth ‘‘the conditions, including restrictions on transfer, to which
they will be subject,’’ id. § 3105(c)(3), and
the ‘‘conditions governing their redemption,’’ id. § 3105(c)(4). Treasury regulations
impose no time limit on the redemption of
savings bonds. See, e.g., 31 C.F.R.
§ 315.35(c) (‘‘A series E bond will be paid
at any time after two months from issue
date at the appropriate redemption value
TTTT’’ (emphasis added)); New Jersey, 684
F.3d at 409 (‘‘[U]nder federal law TTT the
owners of the bonds may redeem them at
any time after they mature TTTT’’). And 31
C.F.R. § 315.15 provides that ‘‘[s]avings
bonds are not transferable and are payable
only to the owners named on the bonds,
except as specifically provided in these
regulations and then only in the manner
and to the extent so provided.’’ See also id.
§ 315.5(a) (providing that savings bonds
‘‘are issued only in registered form’’ and
‘‘must express the actual ownership of’’ the
bond, and that ‘‘registration is conclusive
of ownership’’ with limited exceptions).
Federal law thus confers on bond holders
‘‘a federal right to engage in certain conduct’’—the right to keep their bonds after
maturity without the bonds expiring—
‘‘subject only to certain (federal) constraints.’’ See Murphy, 138 S. Ct. at 1480.
The States’ escheat laws on the other
hand impermissibly restrict the bond holder’s right to retain ownership of the bonds.
Under the escheat laws, if bond holders do
not redeem their bonds promptly enough
(as decided by the States), they lose ownership and the bonds will transfer to the
state. Absent Federal law authorizing such
a state law restriction, the result is clear:
‘‘the federal law takes precedence and the
state law is preempted.’’ Id.

1362

933 FEDERAL REPORTER, 3d SERIES

B
[5] The States do not contest that Federal law would preempt their escheat laws
absent Federal authorization for the state
legislation. But they contend that here
there is no conflict between Federal law
and the States’ escheat laws because Treasury regulations themselves permit the
transfer of ownership under escheat laws.
They rely on 31 C.F.R. § 315.20(b), which
provides that ‘‘Treasury will recognize a
claim [of bond ownership by a third party]
TTT if established by valid, judicial proceedings, but only as specifically provided
in this subpart’’ (emphasis added)—i.e.,
subpart E (§§ 315.20–23). The States contend that their escheat proceedings constitute ‘‘valid, judicial proceedings’’ under
this regulation. Although the Third Circuit
in the New Jersey litigation did not decide
the question before us, the States quote
language from the Third Circuit’s opinion
that ‘‘as provided in the federal regulations
and as recognized by the Treasury, third
parties, including the States, may obtain
ownership of the bonds—and consequently
the right to redemption—through ‘valid[ ]
judicial
proceedings,’
31
C.F.R.
§ 315.20(b).’’ 684 F.3d at 412–13 (alteration
in original).
The States also argue that Treasury has
made repeated statements interpreting
§ 315.20(b) to allow escheat-based claims
so long as the state has title (which the
States allegedly have here). The States
rely on two sets of statements: first, statements Treasury made in denying past escheat claims by various states; and second,
portions of Treasury’s briefing in the New
Jersey litigation. Treasury responds that
its prior statements are entirely consistent
with its present position that it ‘‘considers
escheat-based redemption claims as an exercise of its discretionary waiver authority
under provisions such as 31 C.F.R.
§ 315.90, rather than under § 315.20(b),’’
and that it grants such a waiver only when

a state has both title and possession. Gov’t
Open. Br. at 16 & n.8.
[6, 7] Paradoxically, the States disclaim any reliance on Auer deference, but
offer no other basis for deferring to Treasury’s supposed interpretation of its regulations. In any event, there is no basis for
Auer deference here. As the Supreme
Court recently clarified, ‘‘a court should
not afford Auer [v. Robbins, 519 U.S. 452,
117 S.Ct. 905, 137 L.Ed.2d 79 (1997)] deference unless the regulation is genuinely
ambiguous,’’ Kisor v. Wilkie, ––– U.S.
––––, 139 S. Ct. 2400, 2415, 204 L.Ed.2d
841 (2019), even after applying ‘‘all the
‘traditional tools’ of construction,’’ id.
(quoting Chevron U.S.A. Inc. v. Nat. Res.
Def. Council, Inc., 467 U.S. 837, 843 n.9,
104 S.Ct. 2778, 81 L.Ed.2d 694 (1984)).
Even if the regulation is genuinely ambiguous, Auer deference is not appropriate
unless ‘‘an independent inquiry into TTT
the character and context of the agency
interpretation’’ shows that the interpretation (1) constitutes the agency’s ‘‘authoritative’’ or ‘‘official position,’’ (2) implicates
the agency’s ‘‘substantive expertise,’’ and
(3) reflects the agency’s ‘‘fair and considered judgment’’ of the issue. Id. at 2416–
18.
Although we are dubious that the statements here (particularly those made in the
New Jersey briefs) reflect Treasury’s ‘‘fair
and considered judgment’’ on the question
of whether 31 C.F.R. § 315.20(b) requires
Treasury to recognize escheat claims, id.
at 2417 & n.6, we need not decide that
question. Nor need we decide whether
Treasury’s earlier interpretations were
overridden by its more recent interpretations of the regulations. That is so because
using ‘‘the ‘traditional tools’ of construction,’’ the Treasury regulations are not
‘‘genuinely ambiguous,’’ and thus Auer deference is inappropriate. Id. at 2415.

1363

LATURNER v. U.S.
Cite as 933 F.3d 1354 (Fed. Cir. 2019)

The regulation on which the States rely,
§ 315.20(b), states that Treasury will recognize the ‘‘judicial proceedings’’ ‘‘only as
specifically provided in this subpart’’ (emphasis added). The only judicial proceedings specifically provided in the subpart
are those for bankruptcy (§ 315.21), divorce (§ 315.22), and proceedings finding a
person to be entitled to the bond ‘‘by
reason of a gift causa mortis’’ (a gift made
in contemplation of impending death)
‘‘from the sole owner’’ (§ 315.22). Escheat
proceedings are not mentioned. Accordingly, the general prohibition on transfers of
ownership contained in § 315.15 applies.
The States advance a contrary interpretation of the regulation, arguing that
§ 315.20(b)’s ‘‘only as specifically provided
in this subpart’’ limitation refers to ‘‘the
manner in which judicial proceedings will
be recognized, not the sorts of proceedings
that will be recognized.’’ Kansas Resp. Br.
at 31 (emphasis in original). This is not a
tenable reading of the regulation. A different provision, § 315.23, already specifies
how to prove the validity of a proceeding,
such as by providing certified copies of the
judgment. The ‘‘only as specifically provided in this subpart’’ language in § 315.20(b)
plainly refers to the types of judicial proceedings that will be recognized.
The States also assert that § 315.20(a),
not § 315.20(b), exclusively defines the
transfers of ownership that Treasury will
not recognize. Section 315.20(a) states that
Treasury ‘‘will not recognize a judicial determination that gives effect to an at6.

In Estes v. U.S. Dept’ of the Treasury, the
states argued that the amended regulations
were arbitrary and capricious because they
represented a change in policy without an
explanation for that change. See 219 F. Supp.
3d 17, 27–28; Encino Motorcars, LLC v. Navarro, ––– U.S. ––––, 136 S. Ct. 2117, 2125,
195 L.Ed.2d 382 (2016) (‘‘Agencies are free to
change their existing policies so long as they
provide a reasoned explanation for the
change.’’) The district court rejected this ar-

tempted voluntary transfer inter vivos of a
bond’’ or that ‘‘impairs the rights of survivorship conferred by these regulations upon
a coowner or beneficiary.’’ Contrary to the
States’ argument, § 315.20(a) simply lists
additional transfers that Treasury will not
recognize. It hardly suggests that all other
transfers are valid.
In short, we reject the States’ contention
that Treasury regulations permit the
transfer of ownership under escheat laws.
To the contrary, the plain language of the
regulations confers on bond holders the
right to retain their bonds without losing
ownership if they do not redeem the bonds
within a time limit set by the States.
While we do not rely on it, we note that
Treasury in December 2015 confirmed this
interpretation of its regulation when it
amended § 315.20 to specifically provide
that ‘‘[e]scheat proceedings will not be recognized under this subpart.’’ Treasury also
added a new regulation, section 315.88,
providing that Treasury ‘‘will not recognize
an escheat judgment that purports to vest
a State with title to a bond that the State
does not possess’’—as is the case here—
‘‘or a judgment that purports to grant the
State custody of a bond, but not title’’—as
was the case in the New Jersey litigation.6
II
[8] There is an additional reason that
the States cannot prevail. The States concede that even if Federal law recognized
them as the rightful bond owners, they
gument, holding that the amended regulation
was not a policy change but rather ‘‘a clarification of prior guidance’’ and ‘‘simply elaborated on the standards’’ followed by Treasury
before. Estes, 219 F. Supp. 3d at 27–31. The
court also rejected the states’ Constitutional
challenges (based on the Appointments Clause
and Tenth Amendment) to the amended regulations, id. at 37–41, and the States do not
renew those arguments here.

1364

933 FEDERAL REPORTER, 3d SERIES

could have no greater rights than the original bond owners. See Oral Arg. at 35:45–
36:00. In general, a bond owner must
‘‘present the bond to an authorized paying
agent for redemption.’’ 31 C.F.R.
§ 315.39(a). The States cannot do so here
since they do not have physical possession
of the bonds.7 However, the States advance
several reasons for why they need not
present the physical bonds for redemption.

The government contends that the
bonds here are not ‘‘lost’’ within the meaning of the regulations, because here there
is no evidence that the bonds have been
lost by the original owners. We need not
resolve this issue, because even if the
bonds here are considered lost, the States
do not have the bond serial numbers as
required by 31 C.F.R. § 315.29(c).
B

A
The States maintain that they need not
present the physical bonds because the
bonds should be considered ‘‘lost’’ and the
States can meet the requirements for redeeming lost bonds. The Claims Court
agreed. Under 31 C.F.R. § 315.25, ‘‘[r]elief,
by the issue of a substitute bond or by
payment, is authorized for the loss TTT of a
bond after receipt by the owner.’’ When a
bond is lost, ‘‘the savings bond must be
identified by serial number and the applicant must submit satisfactory evidence of
the loss.’’ Id. There is an exception to the
serial number requirement: ‘‘If the bond
serial number is not known, the claimant
must provide sufficient information to enable’’ the government ‘‘to identify the bond
by serial number.’’ 31 C.F.R. § 315.26(b).
But if an owner seeks to redeem the bond
‘‘six years or more after the final maturity
of a savings bond’’—which applies to all
bonds at issue here—‘‘[n]o claim TTT will
be entertained, unless the claimant supplies the serial number of the bond.’’ 31
C.F.R. § 315.29(c). In other words, the
regulations foreclose the option of redeeming a bond by providing other identifying
information when the bonds at issue are
six years or more past maturity.
7.

As discussed above, there is no issue here
regarding bonds that the States possess. Treasury allowed the States to redeem such bonds,
invoking its authority under 31 C.F.R.
§ 315.90 to waive the provisions that only the

Kansas argues that it is entitled to relief
under the regulation governing ‘‘nonreceipt of a bond,’’ 31 C.F.R. § 315.27, which
does not require the bond owner to provide the serial number. That regulation
provides that ‘‘[i]f a bond issued on any
transaction is not received, the issuing
agent must be notified as promptly as
possible and given all information available
about the nonreceipt.’’ Id. ‘‘If the application is approved, relief will be granted by
the issuance of a bond bearing the same
issue date as the bond that was not received.’’ Id. This regulation does not apply
here. It is directed at the situation where
an individual purchases a bond but does
not receive it—in other words, where
Treasury fails to deliver the bond to the
original owner. Indeed, Arkansas (unlike
Kansas) recognizes that this provision governs ‘‘those cases where a bond ‘is not
received’ by the original owner in the first
place’’—which is not the situation here.
Arkansas Resp. Br. at 50.
C
[9] Arkansas contends that if it can
properly claim ownership of the bonds under 31 C.F.R. § 315.20—an argument rejected earlier in part I—it need not presoriginal bond owner may redeem the bond,
e.g., 31 C.F.R. § 315.15. And when a state
possesses the bonds, it is of course able to
present the physical bonds for payment.

LATURNER v. U.S.
Cite as 933 F.3d 1354 (Fed. Cir. 2019)

ent the physical bonds or the bond serial
numbers. There is no basis for this contention in the regulations. The provisions in
31 C.F.R. §§ 315.20–23 lay out requirements for establishing ownership when
ownership transferred due to proceedings
such as bankruptcy or divorce. They also
establish certain circumstances in which
Treasury will not recognize the transfer of
ownership, such as when judicial proceedings are still pending. See 31 C.F.R.
§ 315.20(c) (stating that Treasury ‘‘will not
accept a notice of an adverse claim or
notice of pending judicial proceedings’’).
But the general requirements for redeeming a bond—such as presenting the physical bond, or, if the bond is lost, providing
the serial number—still apply, and the
States cannot meet them.8
D
Finally, both States argue that even if
they must provide the bond serial numbers, the government has the obligation
under the Freedom of Information Act
(‘‘FOIA’’) to disclose those serial numbers
to the States, or, alternatively, that the
government through discovery may be
compelled to ascertain the serial numbers.
8.

Alternatively, Arkansas argues that since
Treasury has exercised its waiver authority
under 31 C.F.R. § 315.90(a) to allow states to
redeem bonds where the states had both title
and possession, its refusal to extend such a
waiver here ‘‘violates its duty of good faith
and fair dealing’’ implicit in the bond contract. Arkansas Resp. Br. at 53–54. We disagree. When a state has possession and title,
Treasury has been willing to waive the prohibition on transfers of ownership and the requirement that only the registered owner may
redeem a bond. See 31 C.F.R. § 315.15. But
Treasury does not waive the requirement that
the owner must present the physical bond (or,
if applicable, the bond serial number). See 31
C.F.R. §§ 315.39(a), 315.25, 315.29(c). Treasury’s refusal to waive those requirements
here does not violate the provisions of the
bond contract, and the ‘‘implied duty of good

1365

The States suggest that the government
is obligated to provide serial numbers in
response to a FOIA request, citing 31
C.F.R. § 323.2(b). But that regulation
merely restricts who may obtain information through a FOIA request, providing
that securities records ‘‘will ordinarily be
disclosed only to the owners of such securities.’’ Id. (emphasis added). It does not
specify what information may be obtained
and under which circumstances. In any
event, whether the States have the right to
obtain serial numbers of bonds through a
FOIA request is not before us. Kansas
filed such a FOIA request, which Treasury
denied.9 Kansas did not pursue further
review in court, which it would have had to
seek in district court. See 5 U.S.C.
§ 552(a)(4)(B). The Claims Court therefore
properly declined to rely on FOIA, noting
that it has no jurisdiction over denials of
FOIA requests. See Laturner, 135 Fed. Cl.
at 505 n.3.
[10] Alternatively, the States argue
that they should be entitled to obtain the
bond serial numbers through the ordinary
discovery process. While the Claims Court
opinion is not entirely clear, it appears to
have agreed. However, the court recogfaith and fair dealing cannot expand a party’s
contractual duties beyond those in the express
contract or create duties inconsistent with the
contract’s provisions.’’ Dobyns v. United
States, 915 F.3d 733, 739 (Fed. Cir. 2019)
(quoting Precision Pine & Timber, Inc. v. United States, 596 F.3d 817, 831 (Fed. Cir. 2010)).
9.

Treasury’s denial of Kansas’s FOIA request
rested on two grounds. First, Treasury stated
that it lacked responsive records because its
records are not compiled or searchable by the
state listed in the bond’s registration. Second,
it determined that disclosing bond records to
someone other than the registered owner
would, under the circumstances, constitute an
unwarranted invasion of personal privacy
pursuant to FOIA Exemption 6. See 5 U.S.C.
§ 552(b)(6).

1366

933 FEDERAL REPORTER, 3d SERIES

nized in certifying its orders for interlocutory appeal that ‘‘the burdens of discovery
going forward (both in terms of effort and
expense) will undoubtedly be formidable
given the state of Treasury’s savings bond
records.’’ J.A. 5. Treasury’s bond records
are not digitized and therefore not computer-searchable. Nor are they organized by
the state listed in the bond’s registration.
For that reason, locating the serial numbers of the bonds would require manually
searching approximately 3.8 billion savings
bonds records to identify those whose registered owners had an address in Kansas
or Arkansas. Treasury estimates that locating these bonds here would cost $100
million and take over 2,000 years of employee time. J.A. 817.
We need not decide whether locating the
bond serial numbers would be unduly burdensome such that it would be an abuse of
discretion to grant the States’ discovery
request. That is so because requiring the
government to disclose the bond serial
numbers as a matter of discovery would
impermissibly circumvent the requirement
in 31 C.F.R. § 315.29(c) that the bond
owner provide the serial number to redeem a bond six or more years past maturity. Adopting the States’ position would
effectively eliminate this requirement, as a
bond holder could always file suit and then
obtain the serial number through discovery. This would contravene the principle
that the Federal Rules of Civil Procedure
cannot ‘‘enlarge or modify any substantive
right.’’ 28 U.S.C. § 2072(b); see Shady
Grove Orthopedic Assocs., P.A. v. Allstate
Ins. Co., 559 U.S. 393, 423, 130 S.Ct. 1431,
176 L.Ed.2d 311 (2010) (Stevens, J., concurring) (‘‘A federal rule TTT cannot govern a particular case in which the rule
would displace a state law that TTT functions to define the scope of the statecreated right.’’); Semtek Int’l Inc. v. Lockheed Martin Corp., 531 U.S. 497, 503–04,
121 S.Ct. 1021, 149 L.Ed.2d 32 (2001) (noting that if state law granted a particular

right, ‘‘the federal court’s extinguishment
of that right’’ through application of a Rule
of Civil Procedure ‘‘would seem to violate
this limitation’’ contained in § 2072(b)).
The Second Circuit’s decision in Federal
Treasury Enterprise Sojuzplodoimport v.
SPI Spirits Ltd., 726 F.3d 62 (2d Cir.
2013), provides an illustration. There, the
plaintiff sought to sue for trademark infringement under the Lanham Act, but
could not meet the Lanham Act’s statutory
standing requirement, which ‘‘permits only
‘registrants’ to bring actions for infringement of registered marks.’’ Id. at 83. The
plaintiff was not the registrant but argued
that it could nonetheless bring suit because the real party in interest had ratified
the plaintiff’s suit as permitted by Federal
Rule of Civil Procedure 17(a). The Second
Circuit held that the corporation could not
use Rule 17(a) ‘‘to bypass the standing
requirement’’ in the Lanham Act. Id. at 83.
The court reasoned that ‘‘[t]o enlarge
standing [by applying Rule 17] would extend the entitlement to sue to a new party
that is otherwise unauthorized under the’’
Lanham Act, and thus ‘‘amount to an improper expansion of the substantive rights
provided by the Act.’’ Id.; see also Eden
Toys, Inc. v. Florelee Undergarment Co.,
697 F.2d 27, 32 n.3 (2d Cir. 1982) (‘‘While
[Federal Rule of Civil Procedure 17(a)]
ordinarily permits the real party in interest to ratify a suit brought by another
party, the Copyright Law is quite specific
in stating that only the ‘owner of an exclusive right under a copyright’ may bring
suit.’’ (internal citation omitted) (quoting
17 U.S.C. § 501(b) (1980))), superseded on
other grounds by Fed. R. Civ. P. 52(a).
Similarly, here the States cannot use the
discovery rules to bypass the serial number requirement of the Treasury regulations. Allowing the States to do so would
improperly expand the substantive right to
payment under the Treasury regulations,

SANOFI-AVENTIS U.S. v. DR. REDDY’S LABORATORIES
Cite as 933 F.3d 1367 (Fed. Cir. 2019)

since it would extend the right to receive
payment to circumstances in which the
claimant would otherwise not be entitled to
payment.
[11] This is also a situation in which
the bond holders have agreed to the requirements of the Treasury regulations as
part of the bond contract. It is well-established that ‘‘before suit has been filed,
before any dispute has arisen,’’ parties
may waive various rights through contract—even those based in the Constitution, such as due process rights to notice
and a hearing. D. H. Overmyer Co. v.
Frick Co., 405 U.S. 174, 184–85, 92 S.Ct.
775, 31 L.Ed.2d 124 (1972); see also Herman Miller, Inc. v. Thom Rock Realty Co.,
46 F.3d 183, 189 (2d Cir. 1995) (enforcing
contract provision waiving right to a jury
trial). It follows that even if bond holders
might otherwise be entitled to certain discovery, they may limit that right by agreeing to the terms of the bond contract,
which require them to present the physical
bonds or the bond serial numbers for payment.
III
[12] Finally, the States assert that
Treasury’s denial of their redemption requests was a ‘‘taking’’ of their property.
The essence of a takings claim is that the
government ‘‘takes possession of an interest in property for some public purpose’’
and must therefore ‘‘compensate the former owner.’’ Tahoe-Sierra Pres. Council,
Inc. v. Tahoe Reg’l Planning Agency, 535
U.S. 302, 322, 122 S.Ct. 1465, 152 L.Ed.2d
517 (2002). But here the government has
not taken possession of any interest in the
bonds. The bonds remain the property of
the original owners, who under Treasury
regulations retain the right to redeem the
bonds at any time. The States simply do
not have a property interest in the bonds,
and, even if they did, they can have no
greater property interest than the original

1367

owners. See A & D Auto Sales, Inc. v.
United States, 748 F.3d 1142, 1151 (Fed.
Cir. 2014) (‘‘[T]he existence of a valid property interest is necessary in all takings
claims.’’ (quoting Wyatt v. United States,
271 F.3d 1090, 1097 (Fed. Cir. 2001)). Because no property interest of the States
has been impaired, there can be no taking.
CONCLUSION
Because the States’ escheat laws attempt to transfer ownership of the bonds
to the States in contravention of Treasury
regulations, they are preempted by Federal law. In addition, because the States lack
the serial numbers or possession of the
bonds at issue, they could not redeem the
bonds even if they validly owned them.
We reverse the judgment below and remand with instructions to enter summary
judgment for the government.
REVERSED
COSTS
No costs.

,
SANOFI-AVENTIS U.S., LLC, Sanofi
Mature IP, Sanofi, PlaintiffsAppellants
v.
DR. REDDY’S LABORATORIES, INC.,
Dr. Reddy’s Laboratories, Ltd., Sandoz,
Inc., Defendants-Appellees

EXHIBIT B

Case: 18-1509

Document: 91

Page: 1

Filed: 12/11/2019

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

JAKE LATURNER, TREASURER OF THE STATE
OF KANSAS, ANDREA LEA, IN HER OFFICIAL
CAPACITY AS AUDITOR OF THE STATE OF
ARKANSAS,
Plaintiffs-Appellees
v.
UNITED STATES,
Defendant-Appellant
______________________
2018-1509, 2018-1510
______________________
Appeals from the United States Court of Federal
Claims in Nos. 1:13-cv-01011-EDK, 1:16-cv-00043-EDK,
Judge Elaine Kaplan.
______________________
ON PETITIONS FOR REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER

Case: 18-1509

Document: 91

Page: 2

Filed: 12/11/2019

LATURNER v. UNITED STATES

2

Appellee Jake LaTurner and Appellee Andrea Lea filed
separate petitions for rehearing en banc. A response to the
petitions was invited by the court and filed by Appellant
United States. The petitions were first referred as petitions for rehearing to the panel that heard the appeals, and
thereafter the petitions for rehearing en banc were referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied.
The petitions for rehearing en banc are denied.
The mandate of the court will issue on December 18,
2019.
FOR THE COURT
December 11, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

